Orrick, Herrington & Sutcliffe LLP

51 West 52nd Street
New York, NY 10019-6142

September 13, 2021

+1 212 506 5000
orrick.com

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

E. Joshua Rosenkranz

E jrosenkranz@orrick.com
D +1 212 506 5380
F +1 212 506 5151

Johnson & Johnson et al. v. Mississippi, ex rel. Lynn
Fitch, Attorney General of Mississippi, No. 21-348

Dear Mr. Harris,
Petitioners Johnson & Johnson and Johnson & Johnson Consumer
Companies, Inc. (now known as Johnson & Johnson Consumer Inc.)
hereby give blanket consent to the filing of amicus curiae briefs in
support of either party or of neither party in the above-captioned case.
Very truly yours,
/s/ E. Joshua Rosenkranz
E. Joshua Rosenkranz
cc: Counsel for Respondent (via email)

